Office of Inspector General
Report To The Congress
April 1, 1979 - September 30, 1979

Made Pursuant to Section 5
of Public Low 95-452



November 1, 1979




               General Services Administ ration

               Office of Inspector General
           (]D
             "l~~ Services
                  Gen~ral                    Office
                                             of the
                       ~      Administration Administrator Washington, DC 20405

Date       November 9, 1979
Reply to
Attn of:   The Administrator (A)

Subject:   Semi-Annual Inspector General Report to Congress

To         Inspector General (J)

           I have reviewed this report and think it is an excellent explanation of
           the effort of the Inspector General of GSA. It certainly indicates a
           substantial work effort as well as substantial accomplishments. I would
           like to make the following comments on the report.

                 (a) As regards the section of the report dealing with major
           telecommunications procurement, attached to this memorandum is my
           direction to my staff regarding the modernization of the telecommunica-
           tions system in the National Capital Region. I think it further
           clarifies the comments of the Inspector General.

                 (b) Secondly, regarding audit follow-up I believe the following
           comments again amplify the recommendations of the Inspector General.
           The Office for Audit Review has been established. A temporary incumbent
           is heading the office, pending completion of formal selection procedures
           and I expect within the next 90 days the office will be in full operation,
           following up not only on internal IG reports but those of the General
           Accounting Office as well.

                (c) Lastly, I note the efforts of the review of the Art-in-
           Architect by the Inspector General. While I appreciate the concern in
           this area, this investigation, I believe, should be limited to the
           procedural aspect and contractual areas without getting the IG involved
           with what constitutes good or bad art.

           I fully support the Inspector General of the Agency. It is not only a
           valuable asset but it's impact is being felt throughout the Agency in
           better management practices and into the more appropriate expenditure
           of funds allocated to this Agency. My support for this activity is
           strong and I believe it will continue to be a most useful organization
           in ensuring e<{ective and effic~penditure of public funds.



                                             A'~~·
                                 V\}JU)A-A/\.,·

           Enclosure
            GSA DC.Ol000975
           (]D
            ~~~ General                      Automated Data and
                              Services       Telecommunications
                         ~    Administration Service            Washington, DC 20405
            "'IF;   23   'T


Date
Reply to
Attn of     The Administrator (A)

Subject.    Modernization of the National Capital Region Telephone Service

To          Deputy Administrator (AD)


            For approximately three years, this agencyts effort to modernize
            The National Capital Region telephone service has had various fits
            and starts, and has not in the past had a cohesive acquisition plan.
            The attached memorandum states that the current planning efforts
            have ignored or not considered certain appropriate procurement
            directives. However, subsequent to the July 26, 1979, meeting
            mentioned in this memo, I met with a number of people from the
            ADTS organization as well as Mr. Babione! s shop and provided
            direction to the Commissioner, ADTS~ to proceed to draft a letter
            for the Director of OMB to sign, which would in effect ask the
            agencies to cease purchase of any new equipment for telecommunica-
            tions until we in GSA had an opportunity to pres ent for approval an
            acquisition plan for the modernization of the system. This letter
            has been forwarded to OMB for signature.

            I do continue to have concerns, however, that we make sure that
            our intent in this area is clearly and publicly understood, not only
            by the people inside this agency but externally as well. Therefore,
            I think it appropriate to proceed as follows: First, I would like
            you to chair a General Services Acquisition Review Council. The
            preliminary directive for such a council is already in circulation.
            It will be composed of yourself as Chairman, and an appropriate
            representative from Counsel. The members will be all the
            Commissioners and Assistant Administrators at headquarters.
            This group will act to review the acquisition plan to be presented by
            the Commissioner of"ADTS before we forward this plan outside
            the agency. The Review Council will look at all aspects of the
            procurement from the requirement through the business aspects,
            the logistics support, the future plans, and most importantly the
            financial management and the cost estimates of the system.

            Next, of great importance to me is that we follow as closely as
            possible the philosophy of OMB Circular A-I09 and in this regard,
            I would like to make sure that we have a well written statement of
            the need. I believe that the fundamental building block for this
                                                                     2

acquisition must be a clear statement of need with the concurrence
of the Office of Management and Budget. There will then be no
question that we are developing something which the Federal
agencies require.

When the System Acquisition Decision Document (SADD) which
initiates the A-109 process is submitted to me in October by
ADTS as planned, I would like you to make certain that the
mission need statement properly describes what is required.
However, I would like also to have the concurrence or non-
concurrence of the Federal agencies who will be involved in this
system acquisition and if there are questions of doubt, we can
resolve these with the heads of the agencies and/ or the Office of
Management and Budget. Obviously, there will need to be a
review of various aspects of the procurement by the Assistant
Administrator for Acquisition Policy before the Acquisition Review
Council meets and I would like you to ensure that this occurs.

Lastly, after the Acquisition Review Council is completed, I would
like to meet with you with this Council's recommendations whether
or not the plan should be approved for inclusion in our budget
submission to the Office of Management and Budget and to the
Congress.

The attached memorandum raises specific issues about previous
actions regarding this procurement and you should review the
claims made to verify or refute them. While I am concerned that
these actions do not appear to have followed appropriate procurement
regulations, I am much more concerned now with straightening out
the problem and making sure that what we do now and in the future
meet the requirements of the Federal Procurement Regulations
or other regulations involved in the procurement of a system of
this nature or, if required, waivers are provided by AP or
appropriate authority. If you feel the items contained in the letter
from the IG are sufficient to warrant further investigation, I
request you so direct.
                                                                   3

In both the source selection and the membership for the GSA
Acquisition Review Council, I would like to ensure the members'
financial statements are reviewed by the Office of Ethics and
Conflict of Interest to ensure that no member holds any interest
in any company that may be a potential com etitor or would in
any way be p ceived to       lnvolved' any hase of a company1s
               her pos    Ie conflic  f inter st.




Enclosure
                          TABLE OF CONTENTS


   I.   Introduction • • • • • • • • • • • • • • • • • • • • • 1

  II.   Executive Summary • • • • • • • • • • • • • • • • • •    2

 III.   Background • • • • • • • • • • • • • • • • • • • • • • 4

  IV.   Description of significant problems,
        Abuses and Deficiencies and Recommenda-
        tions for Corrective Action • • • • • • • • • • • • • • 6

   V.   Review of Legislation and Regulations •                 10

  VI.   Activities and Performance Indicators •              • 11

        Audits

        A.    Audit Reports Issued
        B.    Fiscal Year 1~80 Audit Plans
        C.    Audit Universe
        D.    Audit Followup
        E.    Audit savings
        F.    Interagency Audit of Property Manage-
              ment
        G.    Other Highlights

        Investigations

        A.    Highlights of Activities
        B.    Investigative Workload
        C.    Investigative Results

        Inspections

         A.    Highlights of Activities
         B.    Identification of Vulnerability Areas
         C.    Inspection Planning


 VII.   Special Efforts to Control Fraud Waste and
        Mismanagement • • • • • • • • • • • • • • • •       • • 33

VIII.   Other Supporting Operations and Activities.             • 36

        A.    Relationship with other Government Agencies
        B.    Employee Training and Development
        C.    Liaison with the General Accounting Office

  IX.   Listing of each Audit Report completed by the
        OIG during the period April 1, 1979 to
        September 30, 1979. • • • • • • • • • • •     • • • • • 39
                          INTRODUCTION


     This Semi-Annual Report represents the first such formal
report pursuant to the Inspector General Act of 1978 since my
appointment as Inspector General in April 1979.

     During the reporting period covered by this Semi-Annual
Report, the President has appointed a new Administrator for GSA,
Admiral Rowland G. Freeman, III.  In the few months since his
appointment the Administrator has not only taken a sincere
interest in promoting the mission of the Office of the Inspector
General but has also firmly supported my efforts to ensure that
appropriate resources are available to meet our statutory mandate.




November 1979




                                1
                     II.   EXECUTIVE SUMMARY

The Office of the Inspector General, General services
Administration was established on October 1, 1978. The person-
nel, resources and programs of the Offices of Audits and
Investigations were transferred intact to this office at that
time, and constituted the initial staffing. Since then, we have
established several other components which fully implement the
Inspector General concept within the agency. These are as
follows:
    -The Office of Inspections which is staffed by technical
     specialists, such as: Engineers, Architects, procurement,
     Reality, Energy, and Transportation Specialists.
    -The Office of Special projects comprised of an interdisciplinary
     staff of Attorneys, Auditors and Investigators, conducts
     investigations, audits and criminal surveys, and also provi-
     des an independent source of legal advice, guidance and
     review.
    -A special management review group, within the Office of
     Audits which is responsible for developing trend analysis
     and reports to management based upon the comprehensive
     review and analysis of all OIG generated reports. This
     group will also provide for centralized review of all
     existing and proposed legislation and regulations.
    -The Management, Administration and Reports Office which pro-
     vides for centralized, administrative and management
     support.
Some of the more significant activities which we have undertaken
during the report period include:
   -Completed a long range comprehensive plan which identifies
    those programs most susceptible to fraud, abuse and mismana-
    gement, and addresses our planned approach to counteracting
    these vulnerabilities.
   -Issued 34 subpoenas, one of which culminated in the first
    subpoena enforcement action under the Inspector General Act
    of 1978. The subpoena was upheld by the Federal District
    Court.
   -Issued 76 internal audit reports.
   -Issued 140 contract audit reports which resulted in
    $10,570,000 of recommended savings.
   -Opened 372 investigative cases.
   -Referred 16 cases for prosecution.
   -Initiated debarment actions against 83 individuals and 71 firms.


                                  2
    -Completed the initial draft of an Inspector General's
     Manual which addresses internal policies, procedures and a
     variety of complex legal and technical issues.

   -Undertook development of an automated Management Information
    System capable of providing information regarding the sta-
    tus and progress of investigations and audits. This system
    is scheduled to be fully operational within the next report
    period.

The programs and activities of this office are provided in
greater detail in the sections of the report which follow.




                             3
                           III. BACKGROUND



A.   AUTHORITY AND ROLE

The Office of Inspector General in GSA was established by the
Inspector General Act of 1978 (Public Law 95-452). The
establishment of the office provided for the combining of the
audit and investigative functions of the agency under a single
officer. The Inspector General reports directly to the
Administrator, and has the authority to inquire into all programs,
activities of the agency and contractors doing business with GSA.
These inquiries may be in the nature of audits, surveys, criminal
and other investigations, inspections or any other inquiry deemed
necessary.
The Inspector General is responsible for providing leadership and
coordination and to recommend pOlicies to promote economy, effi-
ciency and effectiveness in the administration of programs and
operations. It is also the responsibility of the Inspector General
to keep the Administrator and the Congress fully and currently
informed about problems and deficiencies relating to the admi-
nistration of such programs and operations and the necessity for
and progress of corrective action.


B.   ORGANIZATION AND STAFFING

The Office of Inspector General consists of three major offices
each headed by an Assistant Inspector General. These offices
are:   (1) Audits, (2) Investigations and (3) Inspections. In
addition, there is a small immediate office for the Inspector
General, an Office of Special projects, and a Management,
Administration, and Reports Office.

Fiscal Year 1980 positions are distributed as follows:


                             Headquarters    Field   Total

 Inspector General
   (Immediate Office)              8           0          8
 Office of Special projects       37           0         37
 Management, Reports &
   Administration Office          17           0      17
 Inspections                       6          74      80
 Audits                           50         237     287
 Investigations                   27         118     145
    TOTAL                        145         429     574
                         Chart 1


                                 4
                                     OFFICE OF INSPECTOR GENERAL
                                   GENERAL SERVICES AIl-llNI SI'RATION




                                           Inspector General
                                         Deputy Inspector General


                                                                            ~~nagement,  Administration
                                                                             and Reports Office




     c=                        I                                       I                               I

Office of Special     Office of Audits                               Office                         Office
Projects                                                         of Inspections               of Investigations




                                                                 Area Inspections               FfelcfInvesfigaHons
                       Field Audit Offices                          Offices                           Offices
                      Boston        Kansas City                   Washington                Boston         Kansas City
                      New York      Fort Worth                    Atlanta                   New York       Fort worth
                      washington    Denver                        Chicago                   Washington     Denver
                      Atlanta       San Francisco                 San Francisco             Atlanta        San Francisco
                      Chicago
                    L __ _
                                    Auburn
                                                    I    I                  ,I            I
                                                                                          •
                                                                                            Chicago        Auburn      J
                                                        Chart 2

                                                             5
IV.     DESCRIPTION OF SIGNIFICANT PROBLEMS, ABUSES AND DEFICIENCIES
        AND RECOMMENDATIONS FOR CORRECTIVE ACTION


We issued many recommendations to management as evidence by the
list of reports contained in appendix Ie The Administrator has
established a review staff to insure that our recommendations and
those of the General Accounting Office are being implemented by
GSA's Services and staff Offices.

Some of the significant problem areas focused on are as follows:


  1.        Major Telecommunications Procurement


       a.    Background
             In March 1979 information was supplied that the Automated
             Data and Telecommunications Service (ADTS) was about to
             award a sole source procurement for a consolidated
             telephone systemror civilian Federal Government agencies
             located in the Washington, DC, metropolitan area. The
             contemplated system incorporated the use of approximately
             300,000 telephone instruments at a cost of $50 million
             per year.
       b.    Significant Findings
             Investigation revealed that Federal Procurement
             Regulations and GSA procurement regulations and policy
             determinations had not been followed in procuring the
             proposed system. Major concerns were whether sole source
             procurement of this system was justified and whether offi-
             cials in the Automated Data and Telecommunications
             Service of GSA had adequately considered this issue.
             Further, there was evidence that user agencies neither
             wanted nor needed the proposed system.


       c.    Recommendations
             The Acting Adminstrator was informed by memorandum of
             these problems on April 10, 1979. The proposal was sub-
             sequently allowed to expire on May 31, 1979. Information
             later was received that, despite no new information, the
             sole source procurement was to be awarded. A letter to
             the Administrator, attaching our prior memorandum, was
             sent on August 21, 1979.




                                    6
     d.     Status at close of reporting period
            To date the matter remains under review.     However, no
            award has been made.

2.        Construction project Delays and Cost Overruns
     a.     Background
            GSA has been conducting a multi-million dollar construc-
            tion project of a new federal prison at Otisville, NY.
            The project has been beset with significant cost increases
            and construction delays.
     b.     Significant findings
            After initiating a broad audit/inspection/investigation
            into the problems of the project, it appeared that there
            was a serious problem with the supervision of this project.
     c.     Recommendations
            Since substantial work was still to be initiated and
            completed on the project, we, as part of a briefing to the
            Commissioner l of the Public Buildings Service recommended
            that additional senior supervisory staff be assigned to
            the project for the duration of con~truction in order to
            insure that proper supervision and control by GSA would
            be exercised.
     d.    Status at close of reporting period
           We were informed by the Acting Commissioner of the Public
           Buildings Service that additional supervisory personnel
           had been assigned to the project, and that the project
           would be closely monitored by the Central Office of
           Public Buildings Service as well as regional Public
           Buildings Service officials as it proceeded to comple-
           tion.

3.        Non Competitive Extension of Guard Contracts
     a.     Background
            For more than four years, guard contracts within a GSA
            region had not been competitively awarded as required by
            law and GSA regulations. Instead, the 80 contracts were
            extended sola source for a variety of reasons. The sole
            source extension enabled contractors to pass along cost
            increases at every extension.




                                        7
     b.     Significant findings
            After review it was determined that the sole source exten-
            sions had resulted in the loss of over $4 million to the
            Federal Government. It was further determined that the
            extension practice enabled large contractors to keep small
            business set aside guard contracts for which they would not
            be eligible if the contracts had been properly and com-
            petivitely awarded. The investigation disclosed that the
            region had failed to define small business priorities and
            had not addressed deficiencies set forth in GSA and GAO
            audits. Furthermore, due to personnel shortages in the
            Public Buildings Service branch responsible for contract
            awards, contracts remained unawarded 7-10 months after
            bid openings. This resulted in an incumbent extended
            contractor being paid rates in excess of the amount the
            same contractor had bid for the annual award of the same
            contract.
     c.     Recommendations
            After initial discussions with staff officials failed to
            produce results, we formally notified the Regional
            Administrator and the Commissioner of Public Buildings
            Service of these deficiencies and requested that a formal
            plan for corrective action be prepared. We again offered
            support in developing a comprehensive approach to Small
            Business Administration problemstn this area.
     d.     Status at Close of Reporting Peripd
            The Regional Administrator prepared a formal plan for
            corrective action. Based upon this plan, all regional
            guard contracts will be competitively awarded by April 1,
            1980. Additional personnel will be assigned to the
            contract award process, bid bonds will be required for
            all contract bids, and the area of small business par-
            ticipation in regional guard contracts will be specifi-
            cally designated.
4.        Term Contracts
     a.    Background
           Term Contracts are defined as indefinite quantity
           contracts for construction which may be accomplished by
           either a single trade or by several interrelated trades.
           Ordinarily awarded through the competitive bidding pro-
           cess, and of a year's duration, such contracts contain a
           list of specific items of work at fixed unit prices.
           Managers are able to write work orders against the
           appropriate contract(s) by choosing the items applicable
           to the project to be accomplished.




                                  8
     This      of contracting was particularly vulnerable to
             We have therefore continued the inspection work
              r term construction contracts in the metropoli-
     tan Wash ngton area which was init      several years
     ago. As     this time, three         tractors have been
     convicted and sentenced. In conj    tion with the Federal
     Bureau    Investigation, cases         n opened on three
     o   rs
b.
             r significant and often interrelated problem
     areas      been disclosed by our review. The ad-
     ministrat     and managerial systems of checks and balan-
     ces whi         evolved to cover most construction
     contracts were never          to term contracts. As a
     result, fraud                                n       in
           regions exami      n
c.
                                           urrent and   lor
     contracts. A s         was ser     in      tion to this
     on--goi  effort. A staff       r on recommended changes
      n term contract     nistation w 1       sent to the
     Administrator.   t will list the known problems with
     manageri   or contractual      tions, and suggested
     methods or min izing, if not eliminating those
     problems, to      nt further fr    , waste, and mismana-
     gement.




                                 9
           V.   REVIEW OF LEGISLATION AND REGULATIONS

In accordance with our obligations under 5 USC App. 4(a)(2) to
comment upon existing and proposed legislation and regulations,
we took the following actions:
     - Established procedures implementing the Right to
       Financial privacy Act of 1978 (12USC-340let seq.) in the
       operation of subpoena procedures.
     - Examined the draft legislation of the Telephone Record
       privacy Act of 1979 (S. 622). In our opinion the applica-
       tion of certain procedural portions of the Right to
       Financial privacy Act of 1978 to telephone records would be
       premature.
     - Examined and supported the Department of Justice's proposed
       amendments to the False Claims Act (31 USC 231). The pro-
       posed amendments would greatly improve enforcement of the
       Act and broaden the federal government's right to recover
       funds spent as the result of fraudulent practices. We
       also recommended that the various Offices of Inspectors
       General be given investigative authority under the Act.
     - Examined and supported amendments to the Federal Property
       and Administrative Services Act of 1949, (H.R.-538l).
       These amendments would strengthen existing legislation on
       contractor fraud, allow GSA to develop a schedule of
       administrative penalties for fraud, require the develop-
       ment and promulgation of regulations designed to prevent
       waste, abuse and mismanagement, and allow GSA to audit
       all contracts.
      - Examined proposed regulations amending GSA's power to
        suspend and debar contractors~ and supported the creation
        of a unified authority within GSA for suspension and debar-
        ment actions.
      - Examined proposed regulations amending GSA's procedures for
        processing requests under the Freedom of Information Act
        (FOIA), 5 USC 552. We recommended that all officials
        responsible for FOIA decisions within the agency be ade-
        quately trained in the provisions of the Act; and that,
        a central authority within GSA for processing requests and
        promulgating uniform agency policy in responses to FOIA
        requests be created.
      - Examined five lease prospectuses presently awaiting
        congressional approval, at the request of the Senate
        Environment and Public Works Committee.


                             10
This section provides a general overview             our activities, and
addresses our Audit, Investigations and                tions programs.

                                   AUDITS

A.    AUDIT REPORTS ISSUED
       1. Internal Audit Reports
Seventy-six internal audit re    ts were issued. The distribution
of these reports by Service or S    f Office is as follows:




     Office of Management, Poli   &      t             24         32
     Public Bui ings Serv                                         18
     Federal Supply Service                            16         21
     Federal Property Resources Serv   s                4          5
     Transportation and Public Utilities
          Service                                       7          9
     Automated Data & Telecommunications
          Service                                       3          4
     National Archives and Records Service              1          2
     Other (presidential Commissions, etc.)            7           9
          Total                                       76         l~

                           Chart 3

        2.   External (Contract) Audit      Repor~

One hundred and forty contract audit reports were issued
including 16 reports in which the audit was performed by the
Defense Contract Audit Agency (DCAA). A summary of these reports
follows:
                                            r
                                       of        Savings




Office of Human Resources and Or    ization        600
   f ic-e of Managemen t, poli-cy Budget-        4,000
 Public Buildings Serv                          15,814
Federal Supply Service                          11,920
Federal property Resources Service               4,650
Transportation and Public Utilities
   Service                                       2,355
Automated Data and Telecommunciations
   Service                                       5,226
"National Archives and Re~ords Service             500
Other Service/Staff Offices                        300

  Total - projects Identifiable to Specific     45,365
          Service/Staff Offices
Systems Review (will cross service/staff
  office lines)                                  2,235

Special Audits (will be selected as year
  progresses based on Administrator's,
  Inspector General's, other interests)          3,174

   Total Audits - GSA Activities                50,774

Presidential, Other Commissions                      200

   Total                                        50     4


                               12
C.   AUDIT UNIVERSE
Emphasis has been placed on preparation of this document which
defines the resources required for an acceptable level of effort
in aUditing GSA activities and contracting. Attention is being
placed on identification of program areas subject to fraud,
waste, and mismanagement and on a realistic evaluation of the
frequency with which the area should be audited as well as the
amount of resources required. The latest audit universe showed
that a staff of 574 was required. There were 187 positions
authorized in Fiscal Year 1979.
A formal priority system, based on OMB Circular A-73 is being
incorporated into this as well as other stages of the planning
function. In addition, one feature of the Management Information
System will provide for comparison of actual audit accomplish-
ments to the universe by program area.

D.   AUDIT FOLLOWUP
     1.   Audit Followup
Management has not always acted promptly on recommedations con-
tained in internal audit reports or in reports issued by the
General Accounting Office. The former Administrator, recognizing
the need to improve this condition, initiated a quarterly report
on the status of audit recommendations to be submitted to him,
through this office, by the Head of each Service/Staff Office and
each Regional Administrator. He also designated a key official
to review the status of these recommendations. The frequency of
this report was subsequently changed from quarterly to monthly.
The present Administrator is also concerned about insuring prompt
action on recommedations made in GSA and GAO audit reports and
has announced his intention of establishing an action office to
facilitate implementation of those recommendations.

     2.   Action by the Inspector General's Office
Our policy will be to conduct a post-audit of every GSA and GAO
report containing recommendations for actions by GSA management to
insure that satisfactory action has been taken. However,
existing shortage of staff precludes strict adherence to this
policy. We are however devoting about 12 percent of the
available audit resources to followup on the more significant
audit recommendations contained in GSA and GAO audit reports.
The amount of resources devoted to this effort will increase as
the audit staff increases.


                                     13
The f    owup procedure requires that we review actions taken by
        vice or Staff Office on recommendations      ressed to them,
within s cffic timeframes. Where action is incomplete or does
not sati     the recommendation, a written r    rt is pr        for
        inistrator. Additional followups are     rformed until the
open items are satisfactorily resolved.


E.   AUDIT SAVINGS

Many of the findings contained in internal audit reports cannot be
converted to dollar savings. However, this does not detract from
the significant impact they have on strengthening internal controls,
increasing the economy and efficiencY,of operations, and insuring
that program objectives are accomplished.

On the other hand, contract audit efforts normally result in
recommended savings to the Government. These are usually of the
cost avoidance type, since the Government has not paid out the
money for delay claims, proposals by Architect-Engineer firms, or
other types of audits where the audit effort precedes nego-
tiation, settlement and disbursement of funds.

The recommended savings for the last six months were more than
$10 million. Because of time required for negotiations, and in
many cases, litigation, the exact amount of the actual savings
related to the recomended $10 million may not be known for
several years. However, historically, about 60 per cent of the
recommended amounts have been realized as hard savings.


F.   INTERAGENCY AUDIT OF PROPERTY MANAGEMENT

On September 13, 1979, the washington Post published an article
about good furniture discarded in Department of Agriculture
trash. Joint audit probes conducted with the Department of
Agriculture revealed serious property management problems which
may extend beyond the Department of Agriculture. Unnecessary
procurements and poor disposal practices appeared to be
widespread. As GSA has oversight responsibility for property
management, we called for an interagency audit of property mana-
gement practices and have organized an IG Task Force which will
develop cooperative solutions to common property management
problems.




                               14
G   OTHER H
    ~Conduc            an intensive recruiti                  gn resulting in the
     hi i          f    7 profession   audita
            ucte       two training ses ions for newly hired pro             ssion
            tor              izing fr    awareness.
                                 t of an
                                tion    stem,
     i                      tern for Audits                                          i-
     Ii   to   an             , monitor
     effectiveness             audi e fort
    -Testifi     fore Senate                          committees [ega di
        it activities
    -Obtained                  for an      iti       al   o   professional
     tors.
    -Ident fied major areas of existing or potenti                    areas of
     fraud,   sman     nt or waste.
    -Furnished from 8 to 10 auditors to assist Department of
     Justice      ot r law enforcement activities in prosecutive
     efforts.
    -Refi    the audit universe to more clearly define the level of
     audit effort necessary for acceptable discharge of respon-
     sibilities.
    -Increased staffing of the policy, Planning and Evaluation
     Group to provide the capability for a more business-like
     approach to the planning function.




                                                15
                            INVESTIGATIONS


A.   HI    IGHT OF ACTIVITIES
     ---------------------------
The following are highlights of some of the more important
investigative activities during the period.

     -Opened 372 investigative cases involving GSA employees,
      persons, or firms doing business with GSA.

     -Conducted investigations or initiated action which led to
      debarments of 83 individuals and 71 firms and suspensions
      of 19 individuals and 9 firms.

     -Conducted investigations which disclosed $50,268 in wage
      underpayments due contractors' employees and which resulted in
      the assessment of $79,720 in liquidated damages due the
      Government.

     -Aided in the indictment of 35 persons or firms having busi-
      ness with GSA.

     -Carried out investigations which led to the conviction of
      29 persons or firms who received fines totaling $4,500 and
      prison sentences totaling about 32 years.

     -Carried out an investigation which resulted in restitution
      of $161,846.

     -Initiated 13 proactive investigations to detect and to obtain
      information relating to fraud and abuse in GSA program areas.

     -Intensified training in the area of white collar crime in
      cooperation with other agencies.

     -Initiated briefings of other Federal agencies' managers, audi-
      tors, and investigators regarding the detection of fraudu-
      lent activities committed by their employees who use the
      GSA motor pools.




                                   16
                                  Sites    4.

Contractor Debarment/Suspension            3

Employee Misconduct                        30

proactive Investigations                   13

Others                                     24

   TOTAL                                  372
    2.          of new cases
The new cases include investigations of:
             fraud in new construction or repair and alteration
     contracts, or change orders to the contracts.
             fraud in the awarding of building leases, renewal of
     those leases, and maintenance and utilities services pro-
     vided for under the leases.
    -proactive investigations to detect indicators of fraud in
     the rehabilitation program involving electrostatic painting
     contracts.
    -proactive investigations to detect indicators of fraud in
     the GSA quality approved manufacturer's program.
    -Proactive investigations to detect indicators of collusion
     and theft of Government property from Federal Supply Service
     Supply Distribution Facilities.
    -Proactive investigations to detect indicators of fraud in
     contracts for fire extinguisher maintenance, recharging,
     repair, and hydrostatic testing.
    -Alleged fraudulent use of u.S. Government National Credit
     Cards, alleged fraud in the repair and maintenance of
     Government vehicles, and false claims for services alle-
     gedly rendered.
    -Alleged fraudulent use of GSA Self-Service Store shopping
     plates and false claims for goods allegedly delivered.
    -Alleged wage underpayments due employees of construction
     contractors and falsifications of certified payrolls by those
     contractors doing business with GSA.
    -Alleged fraud in the disposal of or alleged theft or misuse of
     donated surplus property.




                               18
                  t vi    by a minority                    to improperly
               contracts for another                        ified under a
            nment    norl    set-asi                       investi tion
       is       coordinated with SBA.
               overcharges to GSA by                 r of computer paper.
               f    ification of time          at   ndance records by GSA
               s.
      -Alleged fra   in guard service, janitorial service, and
       office machine repair contracts.
      -Alleged fr    ulent markup by a contractor of costs of    ts
       furnished      r contracts     the     ir and overhaul of
       industrial    uipment.
The remaining cases                   mis    uct; street crime in
GSA-controlled sites; contractor        nts or suspensions ini-
tiated pursuant to crimina~ investigations; and other cases, such
as tort claims, special inquiries.
 3.
During the      six months ce tain problem areas have been iden-
tified whi        had an impact on the overall staff time
required for investi tions of white co ar crime. Briefly, some
of these   oblems can    described as follows:
       -poor recordkeeping on the part of operating and management
        offici     n GSA, and other Federal agencies.
       -Changes in agency operating procedures by means of memoran-
        dums rather than changing appropriate GSA manuals and regu-
        lations.
       -Magnitude of white collar crime and the potential for fraud
        in GSA programs are sometimes not recognized by management
        officials which create delays in reporting irregularities
        and makes it more difficult to successfully resolve the
        issues of the offense.




                                          19
    -Inadequate delegations of authority or failure to place
     responsibility with operating officials so that they are
     held accountable for their actions requires unnecessary
     investigative time to identify those responsible for the
     wrongful acts.
    -Complexity of some GSA programs in which white collar crimes
     occur requires indepth research to determine the course of
     action to be taken to bring the investigations to successful
     prosecutions.

The overall workload in the Investigative Workforce in terms of
the general character and types of cases being worked has been
analyzed with a view toward limiting investigations to substan-
tial white collar crimes or abuses in GSA programs, to civil
recoveries of monetary losses, and to debarment or suspension of
contractors involved in criminal activities. It is anticipated
that the reduction of insignificant cases will increase white
collar crime and proactive investigations which require more
staff concentration and intensiveness and produce better prosecu-
tive results and management control. It is felt that this
increased emphasis on white collar crime investigations will have
a positive effect on detecting fraud and abuse in GSA programs.
    4.   Pending cases
As of September 30, 1979, there were 597 investigative cases
pending. Of the 597 cases pending, 302 or 51 percent involved
white collar crime investigations.
    5.   Actions on completed cases
We referred 174 instances of alleged wrongdoing or management
deficiencies to GSA officials for administrative action or for
informational purposes.
As of September 30, 1979, administrative action remained pending
in 64 instances where investigative cases were referred to GSA
officials. Chart 12 shows a breakdown of these cases by category
of investigative matter and program area.




                               20
C        INVESTI
           Proce
In                          Attor                 li hed the DOJ-GSA
Task Force n                                        i        rship and
coordination                                      ting to GSA.
          to fac 1 tate the re rr , investi tion, and where
            r
        iate, pr    ution of     instances of crimin    wrongdoing
       ing GSA, we        reed to re        cases where there were
            gro        believe    t v    tions of     r    criminal
                                  Task Force. With few excep-
tions, re rr                         the        Task Fo ce, whi
in turn, forward                           U.S. Attorney.      se
few ex     ions                               red direc        U
Attorney's
    2.                                                au

We referred 16 nvestigative case~                   tment of Justice
fqr prosecu ti ve terminations.                 cases referr ,
remain pendi       two were     1 ned.      A brief synopsis of    se
cases follows:
         -Two GSA employees       dly mis     Government property and
          personnel in connection with    ir official duties.
         -Three janitorial service contractors allegedly were falsifying
          time sheets by increasing the number of hours worked by their
          employees on GSA contracts and one GSA employee was allegedly
          certifying to the correctness of the time sheets even though he
          knew they were false.
         -Two Government employees allegedly misused U.S. Government
          National Credit Cards.
         -Five construction contractors allegedly underpaid their
          employees wages due them and falsified certified payrolls to
          GSA.




                                       21
          -One trucking firm              submi t ted    stionable 1      r
           char s and duplicate            s to

          ~One guard service                   ly f  sifi   time
           sheets, p stol         at on record   traini   cer-
           t f ca     and    i         nation forms as evidence     t
               f      contractual      rements had    n met     n, in
           fact,          not.

          -One office mach ne contractor                          fa
           bill               [iter    ts                    n, in fact
                          not     ivered

          -One


                                                    convicted on   x occa-
                                                              session of
                          and an i                          u.s. Attorney's
           off ce decli          ution since                  s did not
           initiate administrative action.




                                  tions

  r               effort               indictments of 35 persons
     rms
      f                             Of the 35   [sons or firms
i  i te ,                          As of Se      r 30, 1979, 29
  [sons or                     • inc uding seven GSA employees.
Fines asse       a nst    se offenders to      $4,500 and prison
sentences imposed totaled about 32 years.




                                    22
                    a breakdown       the status of criminal actions taken
       gion.
                               n of                          icted          conv   ted

                                                             ci    sand
                                                              i         h           n


                                                      r    c      nvo
                                                      and contractor

                                                        amoun
                                                     Justice
                                                       of
contractors                                            Era
ment. Thi                                              nt
the wi thhold                                         to
ties. As of Se                                      tions
       other suits                                    actions
in the recovery of $62,000



                   CRIMINAL ACTION TAKEN BY REGION
               APRIL 1, 1979 THROUGH SEPTEMBER 30, 1979
                                pending                                      Pe
 Re9io~    I nd ic tmen ts   I nd ic tmen ts Convictions Sentences           Se
           ------ - - - - - - ------- - - - - -
   1            0                 0             0                  0
   2            4                 3             1                  0
   3           23                 3            20                 20*
   4            0                 0             0                  0
   5            3                 0             3                  3
   6            0                 0             0                  0
   7            3                 0             3                  2
   8            0                 0             0                  0
   9            2                 0             2                  0
  10            0                 0             0                  0

  Total        35                 6            29                 25
                       were the results of indictments prior to
   r                 riod.




                                         23
                          GSA EMPLOYEES IND
                      APRIL 1,   7 THROUGH SEPTEMBER 30,                   79


                                                                    Indictment
                                                     I

                                           st                                         1
                                                          1

                                                          1
                                                          3

                                                          1                           1
                Automot ve Mec                                                        2
                  nte Foreman                             1

--   ..~
           To                                                          3              7




                             FIRMS AND     IR
                             OTHER FEDERAL
                                   IND
                      APRIL 1,     79                                30, 1979


                                                         Indictme
                                 Ind cted                 Pe                Convic

                                                              1                   1
                                                              1                   9
                                                                                  2
                                                                                  2
                    tation
                                       2                                          2
           vice   tation
           Attendants                  2                                          2
            ultant/Attorney            1                      1
           • Army                      2                                          2
           st Guard                    1                                          1
           sumer Product
            Sa ty Commission           1                                          1

            To                     2                          3                  22




                                                24
                       NUMBER
                       LVING
                            AND
                          PROSECUTED BY
                  APRIL 1     7 THROUGH




                                                                Co
                                                                Cr
        PPRS                                       3                 3
        PSS                 3      4              9
        PBS                 5                     5              10
                                                  4                  6

        TOTAL                                     1



   4




                                                     in
       owl         u                            barments, sus
adverse actions I

                    Debarments
                    Supensions
                      and Recoveries
                   the Government                      $241,
                To Others                                50,
                (Employees of           firms
                 who were


In addition to these accomplishments, we have re rr    174
instances of       d wrongdoi   or management defic      s,
either involving GSA employees, other Government
employees, or firms and    ir employees for admini trative action
or informational pur    s to Centr   Office and regi     offi-
ci
Of the 174 referr s,     inistrative action or corrective action
was ta n in 26 instances; no action was      i     in 45
instances; and no action was                   in 7 instances.



                                       25
                      i
                     g tion
                         64 re      r           i        cons der t on of


                          AND CASE
    REFERRED BY PROGRAM AREA FOR ADMINISTRATI\~ ACTION OR
 INFORMATIONAL          TO CENTRAL OFFICE AND REGIONAL OFFICIALS
            APRIL 1, 1979 THROUGH SEPTEMBER 30, 1979



         Whi te   St. Crime in
 P       Collar          trolled                   • Mis-
 Are     Crime       Sites                      conduct   0

 ADTS      5                                             1              6
 FPRS                      1             2               1              4
 FSS      37               1            10               2        4    54
 NARS                      1                                            1
 OAD                       1                                      3     4
 PBS      34               7             4           23           2    70
 TPUS     31               1             2            1                35

 TOTAL   107              12                         28           9   174


We have issued 34 subpoenas as fo



   Guard      Janitori    Contracts:                11
   Procurement of Furniture:                         9
   Minor ty Front contractors:                       4
   Con    cts of Interest:                           4
            nt Overbi Ii       Contractors           4
         ulent Purc      of      us Vehicles:        2



Between May 1977 and March 1979 proactive investigations and
management reviews uncovered widespread fraud in GSA programs
nationwide.  In May 1977 investigations into the Federal Supply
Service self-service stores identified criminal activity on the
part of GSA employees, other      ral agency employees, and
contractors doing business wi    GSA.  Those investi  tions culmi-·
nated in convictions of 4 Government employees and contractors.
As a result of these inve ti   tions corrective action was taken
which decreased the fisc      ar   79 self-service store s   s by
$24 million over the     ious year.   In June 1977 GSA investiga-
tors initiated invest gations into Public Buildings Service
buildings mananagement operations which revealed 30 suspected


                                   26
                                                            to
                                                f  ud
                                                 ffort in
                        .
                      ntif
                                              uc    complex
                                         cr inal activity
          ntractors who                 multimillion dollar
           GSA over a    9                 In September 1978,
     n f cant criminal case     loped    this task force were
re     to the newly establi    DOJ-GSA Task Force.




                              27
H

                            ti i       i        i

      t                            o        I                   h include
                                tern Ar                       n Washington, DC;
                             in San Francisco                       Are Office
                            th Centr    Area 0                      ic

                Off                                               taff
                                                                DC and
               astern States,                                       VI   t       ike fo
                i   nat onwide.

          uc   an intensive
             , real
    assurance,

-    re    d action                                                 ich i n t i
    major areas of existi                                       of fraud, misma-
    nagement or waste.

-C   uc    i ntensi ve 90                             ng se sions            f
 inte rate new    ass                           s n   1.




-I     ntifi    ten           contractor
       it:i.                    t may    i      in    si.
    f aud and ins       areas of their invo    nt in our
    continued support to the Washi  ton F Id Office of the FBI
    on these cases. Seven of these GSA employees have
    either resigned or applied for retirement.

-Provided consider     technic   support to the u.s.
 Attorney's offices in several       cities. Cases                                   alt
 with major construct on    jects,    or   terations
 leases.

-T    f  owing                 number and      of contracts
 reviewed and/or ins      • These were contracts awar
 Buildings Man   rs or Regional Contracting Officers.


                                           28
                              t

                   a                             nt
                  ,000                          on

                                                         on




                                   Envir
                                   ting
                                   t


                       t               number of marke    s         s




      Number               Annual Rental
  1                          $1,500,000                         4,030
  2                           1,180,000                       112,000
  3                             920,000                       124,567
  4                           2,200,000                       210 8 000
  5                             760,000                        64,229

tel     These market surveys were conducted in the        sis 0
        five   ase prospectus cases as requested by the Sena
        Enviroment & Public Work Commit.tee        Sect,ion V




                              29
          EWED




      ION OF VULNERAB

                             or areas of vulnerability

Lease acquisition - where we will inspect and analyze the
development of space and lease requirements; market
surveys; requests for offers; negotiations; and award
decisions.
                 tion - where we will inspect and analyze
~--~------~--~------    nts for utilities and services
                   ssors, overtime payments; performance
                 ter ion contracts.




                        30
                                       t
                                           w                     i
                                        to
   50




                  i                                   contract
              ;   r
         ing; tai                                               te
        tion5; negotia
         construction.
                                             ntifi     areas where
                                                 Panel se     tions
                                                ons and previous
                                              r f rros
                                                            i
                                                                use

                             relati   to justificat on,
                          recorome     and exter    pressure


~~~~~~~~--;~~--
                    r - identif    areas re1ati   to com-
                    uation corom tee including     ious affi-
 liation with firms selected; member scores; evaluation
 process used; and ratings and rankings; criteria
 including price proposal factoring, favoritism and selec-
 tion review based on any external pressure and/or selection
 over others recommended.
-Minor Repairs and Maintenance Contracts - identified areas
 where we will inspect and analyze contract development~
 bidding procedures; administrative procedures; inadequate
 inspections; and performance/delivery irregularities.
-Transporation and Public Utilities Service - identified
 vulnerability areas where we will inspect and analyze:
   Motor Pool Op~rations - including: maintenance and
   repair costs; tire utilization; inventory control~
   gasoline/oil usage and control; credit card usage and
   control.
   Moving and Storge Services - including: time and atten-
   dance records relating to office moves; controls
   including lists of available carriers; approving
   payments and review of weight receipts for shipments.
-!ederal Supply Service - identified vulnerability areas
 where we will inspect and analyze the operations of self-
 service stores; storage warehouses controls; examination of
 purchase orders; and quality control methods and
 procedures.
                               31
c.   INSPECTIONS PLANNING - FY                 80
     ~Deve      action plans for FY 1980 in         tions which outline
      priorities. These include:
                                 ams, scheduli ng in
        .---;~----~~.~---,~"~.~~.--".--
                                                       t ion of 200
                                  majority are in excess of
                           and/or leases over 50,000 square feet.




        In the Public Buildings Service activities, the inspections
        of some 3,600 contracts awarded for repaiis, alterations,
        maintenance, and the purchase of supplies and materials.

     '-Developed Tr~6rtation and Public Utilities Service
       inspections to Include the Tns-pection of four motorpool
       locations.
     -DeveloEed inspection Elans in the Federal sup~ly Service
      area to ""Ti1CTiide inspections of f1Veself-servlce stores;
      one storage warehouse; and examination of some 10,000
      purchase orders awarded by the Federal Supply Service.




                                          32
    VII      SPECIAL                TO CON'rROI, FRAUD WAS,!'E AND MI

We                                    r   of b                              d to
an                                         t.ermi. ne                         f    alld
wa

A.                           PLAN
                an         pth 4 man   review of a varie                      r
                dr         a   an for investigating and
                      within GSA in or r to    tect
                              nt. Implementation of this            an wi


B.        ____~u_gANITORIAL AND MOVING             C9NTRACT~

We                  an investi t on into the award
of     d, janitor       and mov    contracts in
W           t to guard and janitori     contracts, i
rece     from regi        investi   ion field offices      numerous
private guard       janitorial contractors were e     i   in     i r
s       of f r audulen t bi i ng for non-prov i d services. A team
of    itors, attorneys and investigators was      rmed to examine
guard janitorial and moving contracts on a nationwide        is.

c.        UTILITY       EW
A review is being conducted of all GSA leased buildings where
            o leased to commercial tenants. Investi tion to
         di closed that in some instances, GSA has paid for
e          service utilized by the commerci   tenants and
not been reimbursed. This review wi    determine the extent of
this problem within GSA leasing operations and seek to determine
why such practices were not previously detected.

D                   ION AND DEBARMENTS
An investigation       audit revealed that a cootractor was
overc   ging the Government for parts on a co~tract        r the
re ir and    teration of airplane e inees. Although, the
contractor was required to keep a WI tten       ocurement system and
was prohibited from purchasing       ts from an    filiate if such
   ts were available from no        con~erci    sources at    sse!
cost, one month    ter            the contract the contractor incor~
   a    a second firm as          i        nt     began billing GSA
at in ated rates.


                                              33
                                            to      Commi i ner of
                                           Commi ioner    neluded
                                           nd         ent
                                     e i nt from contr
                                  ng, this upension was
                                    1so    is was the f r
                       rec    memory that did not i
                        vious      n indicted or convic    in a


E.    ART IN ARCHITECTURAL REVIEW
     is project invo            of      art
       r   bu                  Art in Archi te                 In
         t                           on the
tenants                              with                  ts of
art    i                     ilding thr                      This
    ject                      artwork is                   the
cont acts for artwork ar negotiated and      in ster
Par c      attention will   given to    termining if the govern-
ment is receiving f 1 value for monies expended.

F.    SMALL BUSINESS ADMINI
Du        investi           GSA contracting problems it became
            t the    ncy's program    r dea1i   with
            inist at on (SBA) related matters was         nt. GSA
            office    are, if ever, protes                of
                       had evidence that the bi    r           d
SBA size                 Ie was no method for   termin    wh
    contract areas were uitab1e for small business set~ai
for minority contractors    Bidders' lists were outdated.
In an effort to obtain data concerning the particular problems
encountered by each GSA region and to inform the    ions that
we have in-house expertise in SBA-Ie ted matters, we sent a
questionnaire on SBA-re1ated matters to all GSA Regional
Administrators and Heads of Services. We have recei
answers to the questionnaire and are using them to develop a
comprehensive program for   a1ing with SBA-re1ated problems.

G.    STOCKPILE DISPOSAL
A major area for potential loss to the government is in       area
of stockpi   disposal. We are current    undertaki    to systema-
tically examine stockpile dispos   contracts with a view toward
uncoveri      terns of fr    or   use in this      ram.



                               34
IL    WHISTLE·~Br,OWERS   HOTLINE

In Jan      ,    79, a GSA Whist         rs hotline was        is
         ne numbers, in addition to a      t office box n
    n    tensive        rtis      means     radio, TV                rSe
Recent         pos           n   in     which wi        dis       in
GSA i         ations. The office recei      approximate      o pieces
of mai • 87 re rr        from GAO and 660 phone c     s • All infor~
mation      ev uated and forwarded to the appropriate of f iCf? for
ac tion.

I .       EW OF FURNITURE MANUFACTURER

Following Senate hearings in which allegations of substantial
fraud and abuse in GSA's contractual relationship with an office
furniture manufacturer were raised, we have initiated a broad
inquiry relating to those allegations and whether it is
appropriate for GSA to continue to do business with that manufac-
turer. This inquiry is being conducted by an interdisciplinary
team of auditors, investigators and attorneys within our office.




                                    35
         VII I.     o'rnER SUPPORTING OPERATIONS AND AC'I'I   TIES


A.         ONSHIP WITH OTHER                   AGENCIES

The                 an effective re tionship between        the
                arms of other     ral, state, and  loc
           over       ized. We have had ve    act             i
                tment of Justice and the Fe r     Bureau
                 in the course of our crimi    investi tions.
                 our contacts with these    ncies, the f    ing
agenci             n contacted.

          -c      of our ubpoena procedures were provi       to the
                      of Justice for dissemination to 0    r
                 tor Gener       Subpoena procedure       nvesti-
               ve techniques were specifically discus     with the
                 s of I.nspectors General at the      tment of
           Interior and the Department of Commerce.
                          ve activities into contractor bi ing fraud
                           conducted with    nts of     De  tment of
                            the Department        Air Force
                      ve techni   s were coord na         the
                             Investig tions     the
           Reve ue   rvice   In rmat on concerni        i
           con ractor violations of     Service Contract Act, 41
               351, were re rred to the De rtment of Labor.
          -Joint investigation into the area of fraud    moving
           compan es under contract to the     ral government is
             ing e tablished with other Offices of Inspector
           Gener
          -Substantial contact has    n made with the
           Business Administration (SBA) concerning the enfor-
           cement of contractor size standards   r small business
           set aside contracts. We filed three formal protests on
           contractor size standar   with the SBA size appe
           board. We are attempting to assist the SBA in the
           enforcement of size standards and       omulgation of
           uniform policies towards contractors       ding size
           st     ds.

B.                'I'RAINING AND DEVELOPMENT

Over t      t two   ars, numerous      at:i.ons of fraud, waste
misman             surfaced   ainst GSA.       se       tions
  inted out     need for more traini     n fraud awareness
detection and more intensifi   training in investi tive methods.


                                       36
                               we            ish our own
                               to         te and rank tr
     6                             res ts     such train
Following are                  our training during the
period.




                          n ta n
                        man-hours
                      tment    J  tice,
                       for Internati
                     ded tra ning n financi     invest
                      s to    nts in the Off ces of
                      tions as w.e  as investi t ve              from
                De    tmen of Commerce,.       tment             ,
                rtment of state      the     ral Trade           on.
                   procedures were     i    by       s     a tor   s.
                                   traini   in inve t         methods
                    ures            by the followi          s:
                  Breau 0     Investigations,      rtment   Justice,
              r   Law En          t Training Center, Internal
          Revenue Service.
         -Training sessions in    tection of Era   in        of
          U S. Government Nati      Cred t                    us
          to             sather            ral
          nationwide. A to      of 364 persons from mor than 22
                         s attended     training sessions.
         -We initiated a program whereby new employees to
             ncy are briefed concerning our. mandate;
                   's responsibility to repo~t i
          GSA Standards of Conduct. It is beli                       of
          criminal wrongdoing or blatant mismanagement
          increase. In addition, it is felt that this
          will promote employee integrity.
         -GSA conducted courses designed to familiar.ize our
                   s in the diverse elements of>·procurement, and
           the unl ited number of     ci   considerations and cirm-
          cumstances involved in procurement. There were
          courses attended that familiarized employees wi
          accounting procedures used within GSA.




                                 37
Co   LIAISON WITH THE        ACCOUNTING OFFICE
Continual liaison is maintained with the General Accounting Office.
At      Central Office level, we have one individual assigned full
time to this coordination function. Notification of all GAO ini-
tiative concerni      GSA is dissemina    to     affected He s of
Services and Staf Offices as well as Region      Administrators.
All GAO    tters      reports are tracked to insure timely sub-
mission of       ies. Audit division directors and field audit
office irectors consider scheduled o.r ongoi     GAO audit efforts
in      ding internal audits within their jurisdiction.




                                 38
APPENDIX I
                                                       April 1979

                 IX.   REPORT REGISTER
                       INTERNAL AUDITS

                                                       Date of
Report No.
-~



54-6004-113           on Transportation Inquiry
                   Payment System and Related
                          Transportation
               Management                              04/05/79

77-9118-099            on Proposition 13 - Its
                       on GSA Leases, Phase If
                       Buildings Service, Region 9     04/11/79

25-5061-PC-F          Followup - GAO Report
               on Improved Procedures Needed
                   Justifying Leased Acquisi-
                     of Federal Buildings              04/16/79
                      of Obligations Under
                       1311, Public Law 663 -
                       Buildings Fund - Fiscal
               Year 1978, Region 2                     04/18/79

34-9148-077    Motor Pool Operations, Las Cruces,
               New Mexico                              04/19/79

57-8331-113    Overtime Payments, Central Office       04/23/79

65-7191-044    Second F'ollowup - Management
               Services Division, Region 4             04/24/79
74-6062-033    Management Controls Over New
               Construction Change Orders
               Region 3                                04/27/79

54-8329--033   Review of Obligations Under Section
               1311 Public Law 663 - Federal
               Buildings Fund Fiscal Year 1978,
               Region 3                                04/27/79

54-8329-055    Review of Year-End Obligations - FY
               78 (Section 1311) - Federal Buildings
               Fund Region 5                           04/30/79




                             39
APPENDIX I
                                                           May 1979

                         REPORT REGISTER
                         INTERNAL AUDITS
                                                           Date of
Number                                 Title               Report

54-8091-013        Accelerated Yearend Spending, Federal
                   Buildings Fund, Fiscal Year 1977        05/03/79

74-9089-099        Review of Selected Contract Awards,
                   Region 9                                05/07/79

34-9152-044-F(1)    Second Followup - Interagency
                   Motor Pool Operations, Miami, FL        05/08/79

64-9126-113        Administrative Procedures and
                   Practices of the Federal Mine
                   Safety and Health Review Commission     05/08/79

64-9188-033        Administrative Procedures and
                   Practices of the United States
                   Metric Board                            05/08/79

64-8270-113        Administrative Procedures and
                   Practices of the U.S. Commission
                   on Civil Rights                         05/09/79

34-8052-088-F(1)     Fo11owup - Motor Pool Operations f
                   Grand Junction, Colorado, Reg. 8        05/09/79

49-9131-077        Review of Surplus Depot Stock
                   Items                                   05/15/79

77-9364-066        Letter Report on Wall Mural and
                   Personnel Office, Bureau of Prisons
                   and Parole Commission, ReI Bank
                   Building                                05/16/79

87-9360-113        Letter Report on Review of ADTS
                   Procedures to Monitor TSP Contracts     OS/22/79

63-9116-113a       Interim Report - Security over
                   Computer Operations in the National
                   Capital Region Needs to be
                   Improved                                05/31/79




                                 40
APPENDIX I

                                                        June 1979
                         REPOR'r REGISTER
                         INTERNAL AUDI'fS

                                                        Date of
Number                           Title                  Report ......
                                                       ----~



54- 83 29-0 8 8   The Val ity of Ob1igat
                  Totaling $512,923 was Questionable
                          a1 Year 1978 in the
                  Fe      Buildings Fund, Region 8     06/07/79

72-9365-044       Report on Need for Improvement in
                  Admin tration of Cost Reimburse-
                  ment Incent    Type Contracts -
                  Reg    4                             06/13/79
55-9191-113       Report on Preliminary Review of
                  Credit Card Accounting and
                  Report    System (CARS, BC-41)       06/19/79

81-9127-11:)      Report on the Selection Process
                  Conduc    for TRIPS                  U6/20/79
32-9175-113       Survey    the Special Programs
                  D   sion, Federal Supply Service     06/22/79

45-9337-113       Letter Report on Unannounced
                  Phyi     Inventory of Morphine
                  Sulphate and Crude Gum Opium
                  Stored at the U.S. Bullion
                  Depository, Fort Knox, Kentucky      06/25/79

57-9186-033       Interim Report on Cash Receipts
                  on Stockpile Sales                   06/27/79

60-9082-100       Report on Audit of Office of
                  Business Affairs, Region 10          06/29/79

85-9222-113       Report on Redistribution and
                  Reu·ti1ization of ADP Equipment      06/29/79




                                41
APPENDIX I
                                                            July 1979
                          REPORT REGISTER
                          INTERNAL AUDITS
                                                           Date of
lJumber                              Title

34-9146-044        Interagency Motor Pool Operations,
                   Cape Kennedy, Flor   , Motor Pool      07/03/79

57-9186-033        Second Interim Report on Cash
                   Receipts on Stockpile Sales            07/10/79

32-5020-011-F(4)     Regional FSS Procurement             07/18/79
                   Practices

49-9135-055        Ways to Improve Oversight Over
                   Donated Personal Property to Help
                   Prevent Unauthorized Uses              07/19/79

54-8273-044-F(1)     First Followup on Processing
                   Vouchers for Payment, Region 4         07/19/79

91-7249-113a       Limited Review of Self-Service
                   store Operations, Memphis, TN          07/20/79

34-9143-022        Need for Improved Administrative
                   Procedures in Motor Pool Operations,
                   San Juan, Puerto Rico                  07/23/79

91-7249-044d       Limited Review of Self-Service
                   Store Operations, Memphis, TN          07/23/79

32-9348-088        Region 8 Should Reevaluate Method
                   of Procuring Fire Fighter's
                   Clothing                               07/24/79

32-8268-0l1-F(1) Followup of Inventory Management -
                Phase I                                   07/25/79

34-9145-033        Baltimore Interagency Motor Pool
                   Operations                             07/25/79

74-8202-044-F(2)Second Followup - Review of Change
                Orders on the Richard B. Russell
                Federal Building, Contract No.
                GS-04B-16375                              07/25/79




                                42
           I




3     05


                                                        o           9

'7   8417-     9   $ o gOO 0 In         r   me     to
                   :Lessor at 215 Premont Street,
                   San Francisco g Cali    ia,
                        t    Init    Tenant Alterat.
                   in Leased                            0       3   9

     9137--    3
                                Store         ons           I       9
APPENDIX I

                                                           August 1979
                          REPORT REGISTER
                          INTERNAL AUDITS
                                                               Date of
Number                                 Title                   ReJ20E.~,,_

35-8011-011-F(1)      Limited Review of Self-Service
                    Store Operations, Manchester, NH          08/01/79

69-7194-116-F (1)     Followup or. Recommendations -
                    Audit of Hoover Library, West
                    Branch, Iowa                              08/03/79
76-8264-044-F(1)      Audit Recommendation Not
                    Implemented, Reconciliation of
                    Budget Activity 53 (Rental of Space),
                    First Followup                            08/06/79

55-7084-066-F(1)      Followup - Telephone Inventory
                    Acco~nting System, Region 6               08/14/79

31-8159-077-F(1)      Followup"- Shipment Release
                    Procedures                               08/15/79
64-9287-113         Administrative Practices and
                    Procedures of the Committee for
                    the Purchase from the Blind and
                    Other Severely Handicapped Could
                    Be Improved                              08/15/79
34-9331-044         The Tampa Motor Pool Needs to
                    Improve "the Administration of
                    Repair Work, Region 4                    08/16/79
54-9288-077         Review of Selected Payroll
                    Payments, Region 7                       08/16/79
52-9180-066         Interim Report on Review of Payments
                    to Vendors for Warehouse Items           08/17/79
35-8306-0ll-F{1)      Limited Review of Boston Self-
                    Service Store                            08/21/79

35-9330-088         Region 8 Should Evaluate Need for
                    Self-Service Store at Fort
                    Douglas, Utah                            08/21/79
32-6088-066-F(1)      Followup - Automated Delivery
                    Order Systems for Nonstock Items         08/24/79




                                  44
APPENDIX I
                                                              August      79
                            REPOR'l' REGIS'rER                  (Cent )
                            INTERNAL AUDITS

                                              Tit e

64~    477--113
                                    of
                                    on                Could
                      Be Improved                                08/24/79
77-9282-022                         Report - GSA Leasing
                                      - VIP C                    08/28/79

6     8129-088-F(1}        lowup - Regional
                               Divisi.on,                        08/28/79

3     9136-022        Sel          Store Operations in
                      San Juan, Puerto     Should Be
                      Improved                                   08/29/79

74-8179-044-F(2)        Two Audit Recommendations Not
                      Implemented,
                              Correctional      tution,
                         ladega. Alabama                        08/29/79

54-·-8l5l-022-F (1)     Followup - Administration of
                      Travel                                    08/30/79

64-9472-113           Administrative Practices and
                      Procedures of the Presidential
                      Commission on World Hunger Could
                      Be Improved                               08/30/79

21-6056-EGC           Negotiated Sales of Stockpile
                      Industrial Diamonds                       08/31/79

25-8064-A-F           Followup on GAO Audit Report -
                      The General Services Administration
                      Consumer Information Center               08/31/79




                                         45
APPENDIX I
                                                        September 1979
                          REPORT REGISTER
                          INTERNAL AUDITS
                                                             Date
      r                               Title                         t

54-9185-088        Review of Overtime         nts,
                      ion 8                                 09/04/79
49-9337-077        Oklahoma State Agency for Surplus
                   Property Should Recall Dangerous
                   Military Vehicles                        09/12/79

32-8268-088-F(1)     Fol1owup of Recommendations
                   Contained in Audit of Inventory
                   Management - Phase I, Federal
                   Supply Service, Region 8                 09/21/79
54-7052-066-F(1)     Followup - Payroll Operations         09/21/79
35-9140-077        Conduct of Austin Self-Service
                   Store Officials Warrants
                   Disciplinary Action                      09/24/79
34-9334-077        Management Improvements Needed
                   at Houston Motor Pool                    09/26/79
31-9132-033        Improving Integrity of Inventory
                   Records, Federal Supply Service,
                   Region 3                                09/27/79
53-7192-100-F(1)     Followup on Recommendations
                   Contained in Audit of Imprest Fund
                   and Cashier Operations, Region 10       09/28/79
73-9214-033        Improving Procedures for Awarding
                   and Administering Guard Contracts       09/28/79

74-9215-100        Interim Report on Mismanagement
                   of Construction Contracts Indicates
                   Need to Rescind Contracting Officer's
                   Authori ty                              09/28/79




                                 46
APPENDIX I                                           April 1979

                     REPORT REGISTER
                     CONTRACT AUDITS

                                                    Date of
Report No.                  Title                   Report ,
                                                           .




25-9055-044   Report on Final (First Year) Cost
              Plus Award Fee Contract, Custom
              Janitorial Service, Social Security
              Building, Birmingham, Alabama,
              Contract No. GS-04B-167l4             04/02/79

26-9338-044   Report on Price Proposal for
              Cleaning Services, Richard B.
              Russell Federal Office Building,
              Superb Maintenance Service, Inc.      04/03/79

13-9310-055   Report on Preaward Evaluation of
              Proposed Overhead Rate, Construc-
              tion Economists Collaborative, Inc.
              Proposal No. GS-05BC-9043l,           04/05/79

23-8008-113   Report on Audit Relative to Price
              Reduction and Defective Pricing,
              Acme Visible Records, Inc.
              Contract Nos. GS-00S-33044(Neg.)
                            GS-00S-068l5(Neg.)
                            GS-00S-66l24 (Neg.)     04/05/79

29-9261-100   Report on Preaward Evaluation of
              Pricing Proposal, Decor Main-
              tenance Company, Inc., Contract
              No. GS-lO-B-50l82                     04/06/79

16-8317-032   Report on Claim for Construction
              Change, American Bridge Division
              of United States Steel Corp.,
              Subcontractor to Joint Venture
              of United States Steel Corp.,
              American Bridge Division, Owens-
              Corning Fiberglas Corp. and
              Wolff & Munier, Inc., Contract
              No. GS-00B-02839                      04/09/79

23-9090-114   Report on Review of Price
              Reduction and Defective Pricing,
              Saxon Business Products, Inc.,
              Contract Nos. GS-00S-33962 and
              GS-00S-452l2                          04/12/79




                            47
APPENDIX I                                                    April 1979
                                                               (Cont. )

                            REPORT REGISTER
                            CONTRACT lUJDITS

                                                              Date of
Repor_t. No.                                                  Report

12-8018-033          Report on Final Audit of Construc-
                     tion Coordination Contract,
                     MCCloskey and Company, Inc.,
                     Contract No. GS-00B-00923                04/16/79

26-8401-033          Report on Audit of Cafeteria
                                         r 0 f D. C., Inc.,
                                      3C-714090l              04/19/79

22-822       088-D

                                                              04/17/79

16-921       100                                     of

                                          Contract
                                         24                   04/20/79

2   9227-099                        and Material
                     Contract, Don s Service,
                     Contract No. GS-09W-70237                04/24/79

16-8353-032                           for Construction
                                       Bridge Division
                               States Steel Corp.,
                     Subcontractor to Joint Venture
                        United States S·teel Corp.,
                     American Bridge Division, Owens-
                     Corning Fiberglas Corp. and
                     Wolff & Munier, Inc., Contract
                     No. GS-00B-02839                         04/25/79

12-7287-033          Report on Interim Audit of the
                     Construction Management Contract,
                     Parametric, Inc., Contract
                     No. GS-03B~69008(NEG)                    04/26/79




                                   48
APPENDIX I

                        REPORT REGISTER
                        CONTRACT AUDITS

                                                        Date of
Report No.                     Title                    Report

13-9311-055     Report on Preaward Evaluation of
                Proposed Overhead Rate, Teng &
                Associates, Inc., Proposal
                No. GS-05BC-90423                       04/27/79

13-9012-055-D   Report on Preaward Evaluation
                of Proposed Overhead Rate,
                Kratt, Lachecki, Myers &
                Solberg, Inc., Proposal
                No. GS-05BC-90428                       04/27/79

25-9046-055           Audit of Cost Plus Award
                Fee Contract Clean Sweep, Inc.
                Contract No. GS-05BB-41768              04/27/79
                    the Period July 28, 1976
                        October 27, 1977

25-9047-055     Final Audit of Cost Plus Award
                Fee Contract Twin City Main-
                tenance, Inc. Contract ~o.
                GS-05BB-41769 for the Period
                July 14, 1976 thru January 14, 1978     04/27/79

13-9313-055     Preaward Evaluation of Proposed
                Overhead Rate Centrum Architects,
                Inc. Proposal No. GS-05BS-90426         04/30/79

13-9315-055D    Evaluation of Specific Rate Data
                Schooley Cornelius Associates           04/30/79

26-9346-066     Review of Lessor 6 s operating CQsts,
                H&H Rolla, Inc., Lease No.
                GS-06B-13405                            04/30/79

 26-9350-099    Lease Escalation Proposal Pacific
                News Building Associates Lease
                No. GS-09B-76955                        04/30/79




                              49
APPENDIX I                                             APRIL 1979
                                                         (Cant. )
                       REPORTS REGISTER
                       CONTRACT AUDITS
                                                      Date of
Report No.                      Title                 Report

25-9096-044   Report on Final (Third Year) Cost
              Plus Award Fee Contract, Custom
              Janitorial Service, Federal Building,
              U.S. Post Office and Courthouse,
              Rome, Georgia, Contract No.
              GS-04B-16240                            04/24/79

13-9309-044   Report on Preaward Evaluation of
              Supplemental A-E Proposal, Chrisman,
              Miller, Wallace, Inc., Supplemental
              A-E Services, State of Kentucky,
              Contract No. GS~04B-79708               04/26/79

13-9011-044   Report on Preaward Evaluation of
              Supplemental A/E Proposal, Crouch
              and Adams, Inc., Supplemental
              A/E Services, State of Tennessee,
              Contract No. GS-04B-797l5               04/27/79

25-9241-044   Report on Final (First Year) Cost
              Plus Award Fee Contract, Custom
              Janitorial Service, Federal
              Building & U.S. Courthouse,
              Atlanta, Georgia, Contract No.
              GS-04B-16886                            04/27/79

25-9094-044   Report on Final (First Year) Cost
              Plus Award Fee Contract, Custom
              Janitorial Service, Federal
              Building, Louisville, Kentucky,
              Contract No. GS-04B-16711               04/30/79




                           50
APPENDIX I
                                                         MAY 19-79

                            REPORT-REGISTER
                            CONTRACT AUDITS

                                                          Date of
:Report No.    ~                                          Report._
12-9202-011        Lasker-Goldman Corp., et   ,
                         Venture Construction Manager,
                            No. GS-O   7 43               05/01/79

28-9234-113-D(a)                              Revised
                                      I
                                 Inc ,
                   No. GSC-CDPS-S-0001                   05/01/79

24-9343-112               on Contractor's      fica-
                         under Walsh-Healey Public
                   Contracts Act, FRN Tool &
                   Des   , Inc.                          05/08/79

23-8144-099        Report on Defective           ,
                                          America,
                                          37054          05/08/79

24-9343-112               on Contractor's
                                  Under Walsh-Healey
                   Public Contracts Act, FRN Tool
                   & Design, Inc.                        05/08/79

16-9260-066        Report on Preaward Evaluation of
                   Change Order Proposal, Albers
                   Construction Company, Inc.,
                   Contract No. GS-06B081150             05/10/79

23-8230--094       Accounting Survey of Custom
                   Janitorial Service, Forest Park, GA    05/10/79

28-9153-022        Report on Change Order for
                   Telephone Installation,
                   Teltronics Services, Inc.,
                   Contract No. GS-02S-29880             05/10/79

14-9117-044        Report on Audit of Delay Claim,
                   Whitehead Electric Company,
                   Federal Law Enforcement Training
                   Center, Glynco, Georgia, Contract
                   No. GS-04-B-16968                     05/11/79




                                 51
APPENDIX I                                               Hay 1979
                                                         (Con t. )
                        REPORT REGISTER
                        CONTRACT AUDITS

                                                          Date of
Number                        Title                       Report
25-9098-044     Report on Final Audit of Cost Plus
                Award Fee Contract, Custom Janitorial
                Service, Federal Law Enforcement
                Training Center, Glynco, Georgia,
                Contract No. TCTC-76-3                   05/11/79

26-9356-044     Report on Preaward 8{a) Guard
                Contract, Price Proposal for
                Protection and Patrol Services,
                Metropolitan Miami, Florida,
                G. R. Rankin Security Service
                Corp., Durham, North Carolina            05/11/79

29-9342-118      Letter Report on Audit of Financial
                -Condi tion, Amer ican Wes tern Corp.,
                 Contract No. GS-07S-04881               05/11/79

14-9123-033     Report on Claim for Increased
                Construction Management Fees,
                Turner Construction Company,
                Construction Manager, Contract
                No. GS-00B-0349S                         05/14/79

21-9109-099-D   Report on Evaluation of Price
                Proposals, Rapicow Incorporated,
                A Subs idiary of Rlcoh Co.,
                Unlimited (DCAA)                         05/14/79

21-9168-113     Letter Report on Preaward Review
                of Qualiflcation of Bidder Under
                Walsh-Healey Public Contracts
                Act, Automated Systems, Inc.             05/17/79

13-9012-044     Report on Preaward Evaluation of
                Rates, Gantt/Huberman Associates,
                Supplemental A/E Services,
                North Carolina                           OS/21/79

16-9352-066     Report on Evaluation of Change
                Order Proposal, Albers Construction
                Company, Inc., Con tract No.
                GS-06B-81l00                             OS/23/79

16-9353-066     Report on Evaluation of Change
                Order Proposal, Hoel-Steffen
                Construction Company, Contract
                No. GS-06B-8l101                         OS/23/79


                              52
APPENDIX I
                         REPORT REGISTER                May 1979
                         CONTRACT AUDITS                 (Cont. )
                                                         Date of
Number                           Title                   Report

24- 92 3 3-113    Report on Evaluation of Termination
                  Settlement Proposal, Center for
                  Governmental Responsibility,
                  University of Florida, Contract
                  No. GS-OOS-92037                      OS/23/79

28- 93 39-113-D   Report on Preaward Evaluation of
                  Price Proposal, Trak Systems,
                  Division of Trak Microwave Corp.,
                  Tampa,F lor ida                       OS/23/79

13-9292-033       Report on Preaward Evaluation of
                  A-E Pricing Proposal, E-B-L
                  Engineers, Inc., Contract No.
                  GS-03B-89022                          OS/25/79

25-9161-110       Report on Final Audit of Cost
25-9162-110       Plus Award Fee Contracts, Nash
25-9163-110       Janitorial Services, Inc.,
                  Contract Nos. 03C6138501(Neg.),
                  03C6143701(Neg.), and
                  03C8086701(Neg.)-2                    OS/25/79

26-9256-055       Report on Lease Escalation
                  Proposal, Terrydale Management
                  Corporation, Lease No.
                  GS-05BR-11527                         OS/28/79

13-9305-044       Report on Preaward Evaluation
                  of Supplemental A/E Proposal,
                  Joyce, Pearson & Prout,
                  Supplemental A/E Services,
                  State of Alabama                      OS/29/79

21-9347-055       Preaward Evaluation of Pricing
                  Proposal, Kennedy Contracting
                  Co., Inc., Proposal No.
                  5FPI-01-78-128                        OS/29/79
26-9372-099       Report on Lease Escalation
                  Proposal, Tilford and Tilford,
                  Lease No. GS-09B-75778                OS/29/79




                                 53
                                                 MAY 1979
APPENDIX I                                         (Cant. )
                     REPORT REGISTER
                     CONTRACT AUDITS
                                                      Date of
Number                          Ti                    Report

16-8286-032   Report on Claim for Construction
              Change, Wolff &       f Inc.,
              Subcontractor to Joint Venture
              of United States Steel Corp.,
              American Bridge Division,
              Owens-Corning Fiberglas Corp.,
              and Wolff & Munier, Inc.,
              Contract No. GS-00B-02839              05/31/79




                           54
                                                    June 1979
 APPENDIX I            REPORT REGISTER
                       CONTRACT AUDITS

                                                      Date of
Number                       Title                    Report

13-9304-044     Report on Preaward Evaluation of
                Supplemental A/E Proposal,
                Tiller, Butner, Rosa,
                Supplemental A/E Services,
                State of Alabama                     06/01/79

13-9314-055     Report on Pre award Evaluation of
                Proposed Overhead Rate, Kingscott
                Associates, Inc., Proposal
                No. GS-05BC-90425                   06/01/79
22-9271-044     Report on Requirement Type
                Contract, Repair and Maintenance
                of Typewriters, Southern Business
                Systems, Inc., Troy, Alabama
                Contract No. GS-04W-70454           06/01/79
12-8424-033     Report on System Survey and
                Initial Audit of Construction
                Management Contract, Turner
                Construction Company, Contract
                No. HEW 100-76-0050                 06/05/79

13-9376-044     Report on Preaward Evaluation of
                Supplemental A/E Proposal, Jova/
                Daniels/Busby Incorporated,
                Supplemental A/E Services, State
                of Georgia                          06/05/79

2l-9273-ll3-D   Report on Evaluation of Price
                Proposal, Golden Oak, Inc.
                Vernon, California, Solicitation
                No. FEFP-C4-00l3-A-4-7-78           06/05/79

13-9009-044     Preaward Evaluation of Pricing
                Proposal, Barrett, Daffin, and
                Carlan, Inc., Contract No.
                GS-04B-79704                        06/08/79
13,.9010-044    Preaward Evaluation of Pricing
                Proposal, Stottler, Staff &
                Associates, Contract No.
                GS-04B-79703                        06/08/79




                              55
APPENDIX I                                              June 1979
                        REPORT REGISTER                   (Cont)
                        CONTRACT AUDITS

                                                          Date of
Number                          Title                     Report


21-9277-119      L~tter Report on Qualifications
                 as Regular Dealer under Walsh-
                 Healey Public Contracts Act,
                 Keith C. Ferguson Co., Inc.            06/12/79

14-9196-033      Report on Audit of Claim for
                 Increased Costs, John J. Kirlin,
                 Inc., Contract No. GS-03B-78120        06/13/79
13-9361-033      Report on Preaward Evaluation of
                 A-E Pricing Proposal, Sherertz,
                 Franklin and Shaffner, et aI,
                 Joint Venture, Contract
                 No. GS-03B-88043/89015                 06/19/79

26-9172-033      Report on Lease Escalation Proposal,
                 320 Walnut Company, Lease No.
                 GS-02B-15767                           06/19/79
13-9308-044      Report on Preaward Evaluation of
                 Supplemental A/E Proposal,
                 Supplemental A/E Services,
                 Luckett & Farley, State of
                 Kentucky, No. GS-04B-79707             06/21/79
13-9375-044      Report on Pre award Evaluation of
                 Supplemental A/E Proposal,
                 Millkey & Brown Associates,
                 State of Georgia, GS-04B-79705         06/21/79

23-8234-112      Report on Price Reduction and
                 Defective Pricing, Philips Business
                 Systems, Inc., Contract Nos.
                 GS-00S-32319, GS-00S-06631, and
                 GS-OOS-43123                           06/21/79

13- 90 08-0 44   Report on Preaward Evaluation of
                 Proposed Rates, Supplemental A-E
                 Services, Conizaro Trigiani -
                 Walters & Busby (JV), State of
                 Mississippi                            06/22/79




                                56
APPENDIX I                                            June 1979
                       REPORT REGISTER                 {Cont.}
                       CONTRACT AUDITS
                                                      Date of
Number                         Title                  Report

13-9381-044     Report on Preaward Evaluation of
                Supplemental A/E Proposal,
                Supplemental A/E Services,
                Yeates, Gaskill, Rhodes, State
                of Tennessee, No. GS-04B-797l4       06/22/79

26-9169-033     Report on Audit of Lease
                Escalation Proposal, Foxcroft
                Square Pavilion, Inc., Lease
                No. GS-03B-6297                      06/22/79

13-9363-055     Report on Preaward Evaluation of
                Pricing Proposal, Schirmer
                Engineering Corporation,
                Proposal No. GS-05BC-90430           06/25/79

2l-9238-ll9-D   Report on Evaluation of Price
                Proposals, Dataproducts New
                England, Inc., A Subsidiary of
                Dataproducts Corporation             06/25/79

23-9259-119     Report on ROBSAC Industries, Inc.,
                Contract No. GS-00S-69206            06/26/79

14-9344-088     Report on Audit of Contract Claim
                for Delays in Performance, Jack
                Cillessen Contractor, Inc.,
                Contract No. GS-08B-112ll            06/27/79

13-9013-044     Report on "Preaward Evaluation of
                Supplemental A/E Proposal,
                McGee, Scovil & Rairden,
                Supplemental A/E Services,
                State of North Carolina,
                No. GS-04B-797ll                     06/28/79

22-9154-099     Report on Time and Material
                Contract, T. D. Ex. Enterprises,
                Contract No. GS-09W-80l0l, for
                the period February 1, 1978,
                through January 31, 1979             06/28/79
23-7181-022     Report on Price Reduction for
                Defective Pricing Data,
                Todd-Phelps Sporting Goods
                Mfg. Corp., Contract Nos.
                GS-02S-28993 and GS-02S-28573        06/28/79



                                57
APPENDIX I                                          June 1979
                                                     (Cont.)
                     REPORT REGISTER
                     CONTRACT AUDITS
                                                       Date of
Number                           Title                 Report.
29-9272-055   Claim for Increased Costs, Rock
              Moving and Storage Company,
              Contract No. GS-05T-563                  06/27/79

26-9275-100   Preaward Evaluation of Pricing
              Proposal, Coast Janitorial Service,
              Inc., Contract No. GS-lOB-5028l-0l       06/29/79




                            58
APPENDIX I                                             July 1979
                       REPORT REGISTER
                       CONTRACT AUDITS
                                                        Date of
Number                          Ti tIe                  Report

26-9367-022      Report on Audit of Lease Escalation
                 Proposal, Young Women's Christian
                 Association, Gloversville, NY
                 Lease No. GS-02B-17979                07/02/79

13-9296-011      Report on Preaward Evaluation of
                 Labor and Overhead Rates, Cannon
                 Design, Inc., et al Joint Venture     07/03/79

l4-8165-055(a)   Report on Evaluation of Claim for
                 Extended Overhead, Tishman Realty
                 & Construction Co. I Inc.
                 Contract No. GS-OOB-01141             07/10/79
14-9204-055      Report on Claim for Increased
                 Costs, G&M Electrical Contractors
                 Co., Contract No. GS-05BC-814l8       07/12/79

16-9359-113-D    Report on Evaluation of Price
                 Proposal, CM Associates, Inc.,
                 Contract No. GS-03B-79040             07/12/79

21-9371-119-D    Report on Evaluation of Price
                 Proposal, Inter-Con Security
                 Systems, Inc.                         07/13/79
17-9450-044      Report on Price Proposal for
                 Landscaping and Paving (Part II),
                 Polote Builders, Inc., Federal
                 Correctional Institution,
                 Talladega, Alabama                    07/16/79
14-9345-033      Report on Claim for Increased
                 Costs, Marvaco, Inc., Contract
                 No. 12-14-1001-1012                   07/17/79

26-9258-022      Report on Compliance with
                 License Agreement, Army
                 pictorial Center, Queens, N.Y.        07/17/79

13-9307-044      Report on Preaward Evaluation
                 of Proposed Rates, Supplemental
                 A-E Services, Rosenblum & Assoc.
                 Architects, Inc., State of
                 South Carolina                        07/18/79




                               59
APPENDIX I
                                                         July 1979
                       REPORT REGISTER                    (Cont.)
                       CONTRACT AUDITS
                                                        Date of
Number                          Title                   Report

16-9197-033     Report on Evaluation of Value
                Engineering and Design Change Order
                Proposals, A. A. Beiro Construction
                Company, Inc., Contract No.
                GS-00B-03035                           07/20/79

26-9484-099     Report on Lease Escalation Proposal,
                California State Automobile
                Association, Lease No. GS-09B-75262    07/23/79

16-9466-077     Report on Preaward Evaluation of
                Change Order Proposal, J. A. Jones
                Construction Company, Contract
                No. GS-07B-30505                       07/24/79
17-9380-088     Report on Preaward Evaluation of
                Pricing Proposal, Northwest Piping
                Inc., Project No. R-ND-77-084          07/27/79

17-9362-033     Report on Preaward Evaluation of
                Pricing Proposal, Buckner's
                Landscaping Contractors Inc.,
                Contract No. GS-03B-7805l "NEG"        07/30/79

26-9358-033     Report on Lease Escalation Proposal,
                General Accident Fire and Life
                Assurance Corp., Ltd., Lease Nos.
                GS-03B-6538 and GS-03B-6547            07/30/79

16-9458-055     Report on Preaward Evaluation of
                Change Order Proposal, Jetco, Ltd,
                Subcontractor to J. L. Simmons
                Co., Inc., Contract No.
                8S-05BC-81802, Proposal Ilo. CE 5040   07/31/79

26-9378-022-D   Report on Preaward Proposal
                Evaluation, See Clear Maintenance
                Corp., Bronx, New York,
                Solicitation No.
                GS-02B-19425-01 (NEG)                  07/31/79




                               60
APPENDIX I                                             August 1979
                      REPORT REGISTER
                      CONTRACT AUDITS
                                                       Date of
Number                              Title              Report

22-9488-08S     Report on Accounting System Survey,
                Denver Business Machines, Repair
                and Maintenance Contracts, Nos.
                GS-SDPR-80078 and GS-8DPR-80047       08/03/79

25-9279-044     Report on First Year Audit of
                Cost Plus Award Fee Contract,
                American Master Cleaning Systems,
                Inc., IRS Center, Chamblee,
                Georgia, Contract No. GS-04B-16870    08/06/79
26-9366-022     Report on Lease Escalation
                Proposal, Vineland Construction
                Company, Vineland, New Jersey,
                Lease No. GS-02S-l7959                08/06/79

18-9494-044     Report on Evaluation of Termina-
                tion Settlement Proposal,
                Intraspace Designers, Inc.,
                Contract No. GS-03B-76902             08/0S/79

26-9377-099-D   Report on Evaluation of Price
                Proposal, Stovall's Security
                Service                               08/09/79

12-9206-055     Report on Final Audit of Cost
                Reimbursable Contract, Turner
                Construction Company, Contract:
                No. GS-00B-00903                      08/09/79

21-9436-115     Preaward Evaluation of Pricing
                Proposal, Diebold, Incorporated,
                Hamilton, Ohio, Solicitation
                No. FCFO-Cl-OllS-N-7-20-79            08/10/79
25-9049-032     Cost Plus Award Fee Service
                Contracts, Kleen-Rite Corp.,
                Contract Nos. 03C610000l(NEG) ,
                03C6l38401{NEG)-2, and
                03C70893(NEG)-3                       08/20/79




                               61
 APPENDIX I
                                                    August 1979
                      REPORT REGISTER                 (Cont. )
                      CONTRACT AUDITS

                                                      Date of
Number                          Title                 Report
14-9193-033   Preaward Evaluation of Change Order
              Proposal, John J. Kirlin, Inc.,
              Contract No. GS-00B-02730              08/20/79
16-8405-033   Preaward Evaluat~on of Change Order
              Proposal, Marvaco, Inc., Contract
              No. GS-03B-6l07l                       08/20/79
16-9370-022   Claim for Construction Change,
              Trataros Painting and Construction
              Corp., Contract No. GS-02B-77266       08/21/79
18-9503-099   Termination Settlement Proposal,
              ProtGtype Incorporated                 08/21/79

22-9060-100   Time and Material Contract Billings,
              Emerson G. M. Diesel, Inc,;
              Contract No. GS-10W-85725            08/21/79

27-9054-117   Price Reduction/Defective Pricing
              Audit, Texas Instruments, Inc.,
              Contract No. GS-00C-Oll08              08/22/79
14-9243-033   Claim for Increased Costs.
              John J. Kirlin; Inc., Contract
              No. GS-03B-78l20                       08/23/79
17-9467-088   Pre award Evaluation of Pricing
              Proposal, J. A. Walker Company,
              Project No. R-CO-78-042                08/24/79
17-9495-088   Preaward Evaluation of Pricing
              Proposal, ,T. A. Walker Company,
              Project No. R-CO-78-050                08/24/79
22-9499-066   Time and Material Contract,
              McVay Office Machines, Contract
              No. GS-6DPR-9004l                      08/24/79

22-9498-066   Time and Material Contract,
              Anderson Mechnical Services, Inc.,
              Stillwell, Kansas, Contract
              No. GS-06W-01236                      08/27/79




                           62
APPENDIX I                                            August 1979
                                                        (Cont. )
                        REPORT REGISTER
                        CONTRACT AUDITS
                                                         Date of
 Number                         Title                    Report

 25-9508-044     Price Proposal for Cleaning
                 Services, I.R.S. Service Center &
                 Warehouse, Mr. Klean's Janitor &
                 Maintenance Service, Inc.              08/27/79
 26-9486-ll3-D   Evaluation of Initial Pricing
                 Proposal, Computer Sciences
                 Corporation, Falls Church, VA
                 Solicitation RFPP-PF-79-0l            08/27/79

 17-9490-088     Preaward Evaluation of Pricing
                 Proposal, Ortega Electric Company,
                 D/B/A Holt Electric Company,
                 Project No. R-CO-78-1S0                08/28/79

 21-9437-115     Preaward Evaluation of Pricing
                 Proposal, Schwab Safe Company,
                 Inc., Lafayette, Indiana
                 Solicitation No.
                 FCFO-CI-OllS-N-7-20-79                 08/29/79

14-8387-022      Interim Audit of Suspension/Delay
                 and Change Order Claim, Lepeck
                 Construction Corp., Contract
                 No. GS-02B-17l87                      08/31/79




                                63
APPENDIX I                                               September 1979
                        REPORT REGISTER
                        CONTRACT AUDITS

                                                            Date of
Number                        Ti tle                        Report

16-9445-033      Preaward Evaluation of Change Order
                 Proposal, Hill International, Inc.,
                 Contract No. GS-00B-2225                  09/12/79

16-9448-044      Interim Evaluation of Change Order
                 Pricing Proposal, Dawson Construc-
                 tion Company, Inc., Strom Thurmond
                 Federal Building and U.S. Courthouse
                 Columbia, South Carolina, Contract
                 No. GS-04B-16750                         09/12/79
26-9532-077      Preaward Evaluation of Firm Fixed
                 Price Janitorial Services Contract,
                 Roadrunner Sanitary Supplies and
                 Janitorial Service, Contract No.
                 GS-07B-20706                             09/13/79
l6-902l-055(a)   Evaluation of Addition/Deletion
                 Change Order Pricing, G&M Roofing
                 and Sheet Metal Company, Contract
                 No. GS-05BC-81743A (NEG)                 09/13/79

13-9540-033      Preaward Evaluation of A-E Pricing
                 Proposal, Leo A. Daly, Contract
                 No. GS-03B-88081-89016                   09/14/79
2S-9492-099-D    Evaluation of Price Proposal,
                 Quality Building Maintenance Co.         09/14/79
13-9496-033-D    Pre award Evaluation of A-E Pricing
                 Proposal, Harry Weese and Associates,
                 Ltd"   Contract No. GS-03B-99020/
                 99036                                    09/17/79

16-9447-044      Pre award Evaluation of Change Order
                 Pricing Proposal, Dawson Construction
                 Company, Inc., Strom Thurmond Federal
                 Building and U.S. Courthouse,
                 Columbia, South Carolina, Contract
                 No. GS-04B-16750                         09/17/79
                                                        September 1979
APPENDIX I                                                  (Con t.)
                        REPOR'I' REGISTER
                        CON'I'RAC'r AUDITS
                                                          Date of
Number                            Title                   Report


16-9007-022(A)   Claim for Construction Change,
                 Kalisch-Jarcho, Inc., Subcontractor
                 to the P. J. Carlin Construction Co.,
                 Inc., and Atlas Tile and Marble Works,
                 Inc. (Joint Venture) Contract No.
                 GS-02B-16,835, Change Order No. 166    09/18/79

16-9007-022(B)   Claim for Construction Change,
                 Zwicker Electric Co., Inc.,
                 Subcontractor to the P. J. Carlin
                 Construction Co., Inc"  and Atlas
                 Tile and Marble Works, Inc., (Joint
                 Venture), Contract No. GS-02B-16835
                 Change Order tJo. 166                   09/18/79
21-9493-112      Pre award Evaluation ot Price
                 Proposal, Itek Graphic Products,
                 Solicitation No. FPHP-A-7S103
                 (Renewal Ho. 2)                         09/21/79

25-9491-099-D    Evaluation of Price Proposal,
                 Castle Instant Maintenance, Inc.        09/18/79

17-9200-033      Pre award Evaluation of Pricing
                 Proposal, G&N Construction Corp. ,
                 Contract No. GS-03B-780 61 "NEG"        09/26/79
13-9316-066      Preaward Evaluation of Pricing
                 Proposal, Srtli th and Boucher, Inc.    09/27/79
26-9S13-099-F    Followup on Review of Lease
                 Escalation Proposal,
                 F. M. Swatara Co., Lease No.
                 GS-09B-73487, Carson CA                 09/27/79

13-9530-033      Preaward Evaluation of A/E Prlcing
                 Proposal, The E/A Design Group,
                 Chartered, Contract No.
                 GS-03B-88125/b9020                      09/28/79

16-9195.,.033    Pre award Evaluation of Change
                 Order Proposal, 'I'he George Hyman
                 Construction Co., Contract No.
                 GS-OOB-Ol331                            09/28/79




                                 65
 APPENDIX I
                                                     September 1979
                                                        (Cont.)
                      REPORT REGISTER
                      CONTRACT AUDITS
                                                        Date of
Number                           Title                  Report

21-9435-115   Preaward Evaluation of Proposed
              Unit Prices, The Mosler Safe Co.   T
              Solicitation No.
              RFP FCFO-CI-0l15-N-7-20-79                09/28/79




                            66
